No. 20In the

Supreme Court of the United States
SUSAN PIERSON,
Petitioner,
v.
HUDSON INSURANCE COMPANY,
A NEW YORK CORPORATION, et al.,
Respondents.

On Petition for a Writ of Certiorari to the United
States District Court for the Western District of
Washington at Seattle

PETITION FOR A WRIT OF CERTIORARI

William Johnston
Counsel of Record
401 Central Avenue
Bellingham, WA 98225
(360) 676-1931
wjtj47@gmail.com
Counsel for Petitioner

303175

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
Issue 1. Did the resolution of the tort claim against
Thorne in Pearson v. Thorne decide the same issue or
claim that plaintiff raises in the present suit against
Hudson, such that the present lawsuit is barred by
collateral estoppel? No.
Issue 2. As it relates to the litigation in the prior
lawsuit, is Hudson in privity with Thorne to be able to
avail itself of the affirmative defense of issue and/or claim
preclusion? No.
Issue 3. Collateral estoppel is not to be applied when
the result is against public policy. Plaintiff alleges that
the failure of Hudson to write a waiver of the sovereignty
defense into its policies (up to the limit of the policy) is
a pattern of conduct that nullifies the operation of 25
USC 5321 (c) (3) (A), thereby depriving tort victims of
the recovery that Congress intended should be available.
Hudson has never answered this allegation, instead
urging the court to stretch collateral estoppel to prevent
plaintiff from exposing an illegal and lucrative practice
of collecting premiums for liability policies under which
it is very unlikely that any plaintiff will be able to obtain
a recovery. Because the plaintiff has never had a full and
fair opportunity to litigate this claim, does public policy
require allowing plaintiff to go forward with her claim
against Hudson in the present case? Yes.

ii
PARTIES TO THE PROCEEDING
AND RULE 29.6 STATEMENT
Appellant Susan Pierson, a resident of Washington
State, is the appellant in this Court. She was the plaintiff
in the United States District Court for the Western
District of Washington.
Hudson Insurance, a New York corporation is the
respondent in this Court and was the defendant before
the United States District Court for the Western District
of Washington.

iii
PARTIES TO PROCEEDING
AND RELATED CASES
Parties Defendant in this case:
Hudson Insurance Company, a New York Corporation,
Ody s sey R ei n su r a nce Compa ny, a Con nec t ic ut
corporation, Odyssey Re Holdings Corp; a Delaware
corporation, Alliant Insurance Services Inc., a California
corporation, and Alliant Specialty Insurance Services
Inc., a California Corporation, a subsidiary of Alliant
Insurance Services Inc.,a California corporation, dba
Tribal First, Defendants.
Susan Pierson, Plaintiff, v. Hudson Insurance
Company, a New York Corporation, Odyssey Reinsurance
Company, a Connecticut corporation, Odyssey Re Holdings
Corp, a Delaware corporation, Alliant Insurance Services
Inc., a California corporation, and Alliant Specialty
Insurance Services Inc., a California Corporation, a
subsidiary of Alliant Insurance Services Inc.,a California
corporation, dba Tribal First, Defendants; United States
Court of Appeals for the Ninth Circuit, Cause No. 2025185 decided December 17, 2020.
Susan Pierson, Plaintiff v. Hudson Insurance Company,
a New York Corporation, Odyssey Reinsurance Company,
a Connecticut corporation, Odyssey Re Holdings Corp, a
Delaware corporation, Alliant Insurance Services Inc., a
California corporation, and Alliant Specialty Insurance
Services Inc., a California Corporation, a subsidiary of
Alliant Insurance Services Inc., a California corporation,
dba Tribal First, United States District Court for the
Western District of Washington at Seattle, Cause No.
C19-0289-JCC decided February 6, 2020.

iv
Susan Pearson, a single person v. Director of the
Department of Licensing, a subdivision of the State of
Washington, in his/her official capacity and J. Schwahn,
H. Kleinman, M. Radley, A. Thorne, Larry Yonally, Tribal
Officers and General Authority Police Officers Pursunt to
RCW. 10.92 in their official capacity and in their individual
capacity and all officers , now unknown, who were involved
in the seizure and forfeiture of 1999 GMC S-10 pickup
truck, defendants, United States District Court for the
Western District of Washington at Seattle, Cause No.
C15-0731-JCC, decided June 20, 2016.
Candee Washington v. Washington State Department
of Licensing, Skagit County Superior Court dismissed on
July 2, 2015; dismissal affirmed at 199 Wash. App. 1039
(Div. 1, June 26, 2017) rev. denied 189 Wn2d 1040 (2018).
Jordynn Scott v. John Doe, Director of the Department
of Licensing, Whatcom County Superior Court Cause No.
15-2-00301-8, dismissed on August 10, 2015; dismissal
affirmed at 199 Wash. App. 1039, (Div. 1, June 26, 2017)
rev. denied 189 Wn2d 1040 (2018).
Wilson v. Horton’s Towing, 2016 WL 1221655, W.
D., Wash. (2016), 906 F.3d 773 (9th Cir. 2018), affirmed in
part, vacated in part and remanded, cert. denied 139 S.
Ct. 1603 (2019).
Susan Pierson v. John Doe, Director of the Department
of Enterprise Services, Washington Supreme Court Cause
No. 93643-9, dismissed on Janaury 25, 2017.
Lafferty v. Liu and David Heenan, United States
District Court for the Western District of Washington
at Seattle, Cause No. 2-17-CV-00749-RSM, dismissed on
September 17, 2018.

v
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING AND RULE
29.6 STATEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
PARTIES TO PROCEEDING AND RELATED
CASES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . .  viii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  ix
PETITION FOR A WRIT OF CERTIORARI . . . . . . . 1
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . . 1
PRELIMINARY STATEMENT . . . . . . . . . . . . . . . . . . . 3
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 9
A. Background of Prior and Instant Cases
involving Susan Pierson  . . . . . . . . . . . . . . . . . . . . 9

vi
Table of Contents
Page
B. 	 Proceedings Below in the Present Case . . . . . . 11
C. Basis for Decision in the Prior Lawsuit . . . . . . . . 12
SUMMARY OF ARGUMENT  . . . . . . . . . . . . . . . . . . . 14
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
1.

The District Judge erred in concluding
the issues in Pearson v. Thorne were
ident ic a l a nd t he A pp el l at e Cou r t
erred in affirming that result . . . . . . . . . . . . . . .  17

2.

The issue and/or claim upon which the
estoppel is based does not meet the
definition of issue claim set forth in Lucky
Brand Dungarees v. Marcel Fashions
140 S. Ct. 1589 (May 14, 2020)  . . . . . . . . . . . . . . 22

3.

The issue and/or claim and privity upon
which the estoppel is based does not
meet the definition of issue/ claim and
privity as set forth in Thompson v. King
County 163 Wa. App. 184 (2011) . . . . . . . . . . . . . 27

vii
Table of Contents
Page
4.

The application of collateral estoppel cannot
satisfy the 4th component to the application
of collateral estoppel, that is, that the
application of the estoppel would not work
an injustice, because the court did not
resolve the issue/or claim and plaintiff was
not afforded a full and fair opportunity to
be heard on the issues and claims she raises
against Hudson in Pearson v. Thorne . . . . . . . . 29

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30

viii
TABLE OF APPENDICES
Page
APPENDIX A — MEMORANDUM OF THE
UNITED STATES COURT OF APPEALS
FOR T HE NIN T H CIRCU I T, FILED
DECEMBER 17, 2020 . . . . . . . . . . . . . . . . . . . . . . . . . 1a
APPENDIX B — OPINION OF THE UNITED
STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF WASHINGTON AT
SEATTLE, FILED FEBRUARY 6, 2020 . . . . . . . . 7a
APPENDIX C — OPINION OF THE UNITED
STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF WASHINGTON AT
SEATTLE, FILED JUNE 20, 2016 . . . . . . . . . . . . 16a

ix
TABLE OF CITED AUTHORITIES
Page
Cases:
Brown v. Felsen,
442 U.S. 127, 99 S. Ct. 2205,
60 L. Ed. 2d 767 (1979) . . . . . . . . . . . . . . . . . . . . . . . . 22
Christensen v. Grant County Hospital,
152 Wash. 2d 299 (2004) . . . . . . . . . . . . . . . . . . . . . . . 29
Candee Washington v. Washington State
Department of Licensing,
199 Wash. App. 1039 (Div. 1, 2017)
rev. denied 189 Wn2d 1040 (2018) . . . . . . . . . . . . . . . . 3
Evans v. McKay,
869 F.2d 1341 (9th Cir. 1989) . . . . . . . . . . . . . . . . . . . . 6
Jordynn Scott v. John Doe, Director
of the Department of Licensing,
199 Wash. App. 1039 (Div. 1, 2017)
rev. denied 189 Wn2d 1040 (2018) . . . . . . . . . . . . . . . . 3
Kremer v. Chemical Constr. Corp.,
456 U.S. 461, 102 S. Ct. 1883,
72 L. Ed. 2d 262 (1982) . . . . . . . . . . . . . . . . . . . . . . . . 22
Lawlor v. National Screen Service Corp.,
349 U.S. 322, 75 S. Ct. 865,
99 L. Ed. 1122 (1955)  . . . . . . . . . . . . . . . . . . . . . .  24-25

x
Cited Authorities
Page
Lewis v. Clarke,
320 Conn. 706, 135 A.3d 677 (2016),
137 S. Ct.1285 (2017) . . . . . . . . . . . . . . . . . . . . . . . . . . 27
Lucky Brand Dungarees v. Marcel Fashions,
140 S. Ct. 1589 (May 14, 2020) . . . . . . . . . . . . . . passim
Nielson v. Spanaway Gen. Med. Clinic, Inc.,
135 Wash. 2d 255 (1998) . . . . . . . . . . . . . . . . . . . .  29-30
Paulo v. Holder,
669 F.3d 911 (9th Cir. 2017) . . . . . . . . . . . . . . . . . . . . 18
Pearson v. Thorne,
C15-0731-JCC, 2016 WL 3386798,
W.D. Wash. (2016) . . . . . . . . . . . . . . . . . . . . . . . . passim
Sayward v. Thayer,
9 Wash. 22, 36 P. 966 (1894) . . . . . . . . . . . . . . . . . . . . 23
Scholz v. Wash. State Patrol,
416 P.3d 1261 (Wash. Ct. App. 2018) . . . . . . . . . .  15, 16
Shea v. City of Spokane,
17 Wash. App. 236, 562 P.2d 264 (1977), aff’d,
90 Wash. 2d 43, 578 P.2d 42 (1978)  . . . . . . . . . . . . . . 27
Shoemaker v. City of Bremerton,
745 P.2d 858 (Wash. 1987)  . . . . . . . . . . . . . . . . . .  15, 16

xi
Cited Authorities
Page
Susan Pierson v. John Doe, Director of the
Department of Enterprise Services,
Washington Supreme Court Cause
No. 93643-9  . . . . . . . . . . . . . . . . . . . . . . . . . . . .  3, 17, 25
Thompson v. King County,
163 Wa. App. 184 (2011)  . . . . . . . . . . . . . . 21, 27, 28, 32
United States v. Tohono O’odham Nation,
563 U.S. 307, 131 S. Ct. 1723,
179 L. Ed. 2d 723 (2011) . . . . . . . . . . . . . . . . . . . . . . . 22
Whole Woman’s Health v. Hellerstedt,
579 U.S. ––––, ––––, 136 S. Ct. 2292,
195 L. Ed. 2d 665 (2016) . . . . . . . . . . . . . . . . . . . . . . . 24
Wilson v. Horton’s Towing,
2016 WL 1221655, W. D., Wash. (2016) . . . . . . . . . . . . 4
Statutes:
18 J. Moore, D. Coquillette, G. Joseph, G. Vairo, & C.
Varner, Federal Practices § 131.22(1)
(3d ed. 2019) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
18 Moore Federal Practice &132.02(2)(c)  . . . . . . . . . . . 18
25 U.S.C. § 5321  . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
25 U.S.C. § 5321(c)(3)(A)  . . . . . . . . . . . . . . . . . . . . . passim

xii
Cited Authorities
Page
28 U.S.C. § 1291  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
42 U.S.C. § 1983  . . . . . . . . . . . . . . . . . . . . . . . . . . 10, 12, 19
42 U.S.C. § 1988  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Wash. Rev. Code § 10.92  . . . . . . . . . . . . . . . . . . . . . . . . . 18
Wash. Rev. Code § 10.92.020 . . . . . . . . . . . . . . . 5, 6, 19, 20
Wright & Miller § 4407  . . . . . . . . . . . . . . . . . . . . . . . 22, 24
Court Rules:
CR 12(b)(6) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  11, 14
CR 10(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
Other Authorities:
Restatement (Second) of Judgments § 24, Comment b,
p. 199 (1982) (Restatement (Second) . . . . . . . 23, 24, 25

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner Susan Pierson respectfully requests that
this court grant a writ of certiorari to review the order
and the judgment and opinion of the United States Court
of Appeals for the 9th Circuit entered December 17, 2020,
an unpublished opinion reported at 2020 WL 7398999.
OPINIONS BELOW
The opinion of the United States Court of Appeals
for the 9th Circuit affirming the dismissal of petitioner’s
breach of contract claim was issued on December 17, 2020
and not reported (App., 1a-6a).
The order of the United States District Court for the
Western District of Washington dismissing the case on
February 6, 2020 is reported at 2020 WL 583825 (App.,
7a-15a).
JURISDICTION
The opinion of the United States Court of Appeals
for the 9th Circuit affirming the dismissal of petitioner’s
breach of contract claim was issued on December 17, 2020.
Under this court’s order of Thursday, March 19, 2020,
extending the deadline for filing to 150 days from the
date of the lower court judgment, this petition is timely
filed. This court has jurisdiction under 28 U.S.C. § 1291.
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
25 U.S.C.A. § 5321

2
Formerly cited as 25 USCA § 450f
§ 5321. Self-determination contracts
(c) Liability insurance; waiver of defense
(1) Beginning in 1990, the Secretary shall be
responsible for obtaining or providing liability insurance
or equivalent coverage, on the most cost-effective basis, for
Indian tribes, tribal organizations, and tribal contractors
carrying out contracts, grant agreements and cooperative
agreements pursuant to this chapter. In obtaining or
providing such coverage, the Secretary shall take into
consideration the extent to which liability under such
contracts or agreements are covered by the Federal Tort
Claims Act.
(2) In obtaining or providing such coverage, the
Secretary shall, to the greatest extent practicable, give
a preference to coverage underwritten by Indian-owned
economic enterprises (as defined in section 1452 of this
title), except that, for the purposes of this subsection, such
enterprises may include non-profit corporations.
(3)(A) Any policy of insurance obtained or provided by
the Secretary pursuant to this subsection shall contain a
provision that the insurance carrier shall waive any right
it may have to raise as a defense the sovereign immunity
of an Indian tribe from suit, but that such waiver shall
extend only to claims the amount and nature of which are
within the coverage and limits of the policy and shall not
authorize or empower such insurance carrier to waive or
otherwise limit the tribe’s sovereign immunity outside or
beyond the coverage or limits of the policy of insurance.

3
(B) No waiver of the sovereign immunity of an Indian
tribe pursuant to this paragraph shall include a waiver
to the extent of any potential liability for interest prior
to judgment or for punitive damages or for any other
limitation on liability imposed by the law of the State in
which the alleged injury occurs.
PRELIMINARY STATEMENT
The instant case is one of four cases in which
automobiles owned by non Native Americans were
seized and held for forfeiture by tribal police officers for
violation of tribal drug laws. In three of the four cases,
the automobiles were ordered forfeited by the Swinomish
Indian Tribal Court for violation of tribal drug laws. The
three cases are (1) Candee Washington v. Washington
State Department of Licensing, 199 Wash. App. 1039
(Div. 1, 2017) rev. denied 189 Wn2d 1040 (2018), (2)
Jordynn Scott v. John Doe, Director of the Department of
Licensing, 199 Wash. App. 1039 (Div. 1, 2017) rev. denied
189 Wn2d 1040(2018), and (3) Susan Pearson (sic) Pierson
v. Director of Department of Licensing and Andrew
Thorne, Swinomish tribal police officer, 2016 WL 3386798,
(Western District of Washington, June 20, 2016). Pearson
was adjudicated by John C. Coughenour, United States
District Judge who also adjudicated the instant case.
In the Washington and Scott cases, the Swinomish
Tribe was able to sell the cars and have the certificates
of title transferred to the buyer at public auction. In the
Pearson case, the motor vehicle was not sold because as a
result of the Washington and Scott cases, the Washington
State Department of Licensing agreed not to honor tribal
orders of forfeitures in the future to change certificates of

4
title to automobiles. The Department of Licensing did this
to avoid entry of an injunction prohibiting the Department
from doing so.
The fourth case in which an automobile owned by a
non Native American was seized and held for forfeiture
by tribal police officers for violation of tribal drug laws is
Wilson v. Horton’s Towing, 2016 WL 1221655, W. D., Wash.
(2016), 906 F.3d 773 (9th Cir. 2018), cert. denied 139 S. Ct.
1603 (2019). Wilson involved the Lummi Tribe. Wilson
sued Brandon Gates, a Lummi Tribal police officer who
traveled into Bellingham and seized Wilson’s truck. Gates
towed it to the Lummi Reservation where a forfeiture
proceeding was initiated against the truck. The 9th circuit
dismissed Wilson’s claim that the Lummi Tribe lacked
jurisdiction to forfeit his truck, without prejudice, but
directed that Wilson first had to exhaust his claim before
the Lummi Tribal Court before the court would decide
the jurisdictional question as to whether the tribe had
authority to forfeit property of non Native Americans for
violation of tribal drug laws.
Two other related cases referenced in the Appellant’s
Excerpts of Record are (5) Susan Pierson v. John Doe,
Director of the Department of Enterprise Services,
Washington Supreme Court Cause No. 93643-9; and (6)
Lafferty v. Liu and David Heenan, United States District
Court for the Western District of Washington at Seattle,
Cause No. 2-17-CV-00749-RSM.
Susan Pierson v. John Doe, Director of the Department
of Enterprise Services, was commenced after Pearson v.
Thorne was dismissed. Before the Washington Supreme
Court rendered its decision, the Swinomish Tribe

5
presented the Director of the Department of Enterprise
Services (DES) with an endorsement of the Hudson
insurance policy covering the liabilty of the Swinomish
Tribe. The endorsement amended the insurance policy
to make it compliant with RCW 10.92.020 and waived the
right to plead Indian sovereignty as a defense. The waiver
states “pursuant to Revised Code of Washington 10.92.020
(2) (a) (11), to the extent of policy coverage neither the
named Assured nor Hudson will raise the defense of
sovereign immunity to preclude an action for damages
under state or federal law, the determination of fault in a
civil action, or the payment of a settlement or judgment
arising from the tortious conduct.” The waiver material
is found at Appellant’s Excerpts of Record Vol. II, 97-117.
Scrutiny of the waiver contained in the endorsement
submitted by the Swinomish Tribe reveals that the
Hudson policy does not contain the waiver required by 25
USC 5321 © (3) (A). The waiver submitted only waives the
right to assert the defense of Indian sovereignty to defeat
a claim under the policy if the tribal officer is acting under
state law or federal law, RCW 10.92.020. The endorsement
required under RCW 10.92.020 preserves the right of
the insurer to plead Indian sovereignty as a defense to a
claim covered under the policy if the officer was acting in
his capacity to enforce tribal law. Notice that this limited
waiver fits in with the result reached in Pearson v. Thorne,
where the court found that Thorne was acting as a tribal
officer and not as a state or federal law enforcement officer.
25 USC 5321 (c) (3) (A) makes no such distinction and
requires a complete waiver. That is, the analysis is simple.
Is the claim covered under the policy? If so, no defense of
Indian sovereignty can be asserted to defeat the claim.

6
The waiver mandated by 25 USC 5321 (c) (3) (A) does not
allow the insurer to defeat a claim covered under the policy
by assertion of Indian sovereignty because the officer was
acting as a tribal officer. The only deduction to be taken
from the submission of the waiver in Pierson v. DES was
that, prior to the submission of the Washington state
based waiver required by RCW 10.92.020, the Hudson
policy had no waiver of any type because if it did contain
the all encompassing waiver required by 25 USC 5321
(c) (3) (A), no submission of the lesser state waiver would
have been necessary.
Hudson’s position that submission of the Washington
state conforming waiver was adequate is consistent with
the postion taken by Hudson, that no federal conforming
waiver is required based upon case law, principally Evans
v. McKay 869 F.2d 1341 (1989), see Appellant’s Excerpts
of Record,Volume II, pages 118,119.
But a careful read of Evans v. McKay reveals that
Evans holds to the contrary. It specifically states that
Indian sovereignty cannot be used as a defense against
any claim covered under the policy. The following is taken
from Evans v. McKay, 869 F2d at 1346:
The ISDA permits the various Indian tribes,
inter alia, to contract with the Secretary of
the Interior to furnish services previously
administered by the federal government. 25
U.S.C. § 450f. The ISDA further vests the
Secretary with discretion to require any
tribe requesting such a contract to obtain
adequate liability insurance. Specifically, the
Act provides that:

7
The Secretary is authorized to require any
tribe requesting that he enter into a contract
pursuant to the provisions of this subchapter to
obtain adequate liability insurance: Provided,
however, That each such policy of insurance
shall contain a provision that the insurance
carrier shall waive any right it may have to raise
as a defense the tribe’s sovereign immunity
from suit, but that such waiver shall extend only
to claims the amount and nature of which are
within the coverage and limits of the policy and
shall not authorize or empower such insurance
carrier to waive or otherwise limit the tribe’s
coverage and limits of the policy of insurance.
25 U.S.C. § 450f(c) (codified as 25 USC 5321 ©
(3) (A) (emphasis added). It is this section of the
ISDA upon which the appellants primarily rely
to support their argument that the Tribe has
waived its sovereign immunity.
While requiring a tribe to obtain liability
insurance as a condition precedent to contractual
performance authorized by the Secretary,
section 450f(c) clearly addresses, as is evident
in the caveat of that subsection, the rights and
limitations of the insurance carrier, not the
Tribe. This provision expressly precludes the
insurer from defeating a claim covered by the
policy by an invocation of the tribe’s sovereign
immunity.
The fact remains Thorne and Pierson were covered
under the Hudson policy and the only lawyer involved in

8
the litigation was a defense attorney hired by Hudson
to defend a person covered under its policy. There was
no lawyer representing the tribe and asserting tribal
sovereignty on behalf of the tribe. Hudson’s lawyer
asserted the defense of Indian sovereignty on behalf
of a named tribal officer sued in his individual capacity
who was covered under the policy and thereby achieved
dismissal of the claim.
The second related case is Lafferty v. Liu and David
Heenan, United States District Court for the Western
District of Washington at Seattle, Cause No. 2-17-CV00749-RSM. At Appellant’s Excerpts of Record 118, 119
is the letter from William W. Spencer which is the only
record of a legal position taken by Hudson Insurance
relating to the challenge that 25 USC 5321 © (3) (A) applies
to the Hudson Insurance policy at issue and requires a
written waiver in the policy itself forsaking the right to
assert the defense of Indian sovereignty as a defense to
a claim covered under the policy.
The opinion of the District Court in Lafferty v.
Heenan and Hudson Insurance is found at Appellant’s
Excerpts of Record 39, 40.
On February 27, 2019, Lafferty sued Heenan, a
Swinomish tribal police officer, and named Hudson as
a party defendant seeking an injunction compelling
Hudson to take steps to insure that the defense of Indian
sovereignty was not asserted as a defense to the tort
claim against Heenan. Pierson cites DKT #50(citing DKT
#46) as pointing out that after Lafferty noted his motion
to enjoin Hudson, Hudson replied and argued in court
pleadings that Indian sovereignty was not pleaded as a

9
defense to Lafferty’s tort claim against Heenan. Therefore
Hudson argued that the issue was moot and the request
for the injunction groundless. Hudson requested terms
and the imposition of monetary sanctions against Lafferty.
Lafferty replied that Indian sovereignty had been pleaded
and cited Heenan’s answer. After this took place, Heenan
filed a document withdrawing his defense of Indian
sovereignty to the tort claim brought by Lafferty against
Hennan. This resulted in the court’s dismissing Lafferty’s
request for an injunction as moot; see Appellant’s Excerpts
of Record 39,m lines 17-28, 40, lines 1-4.
This outcome shows a coordination between Heenan’s
lawyer (appointed by Hudson) and Hudson itself to prevent
the court reaching the issue of the absence of the waiver
required by 25 USC 5321 © (3) (A) from Hudson’s policy,
and preventing what would have been the logical next step
– an injunction requiring Hudson to include in its policies
a waiver so that appointed lawyers would not be able to
assert the defense of Indian sovereignty in a tort suit.
STATEMENT OF THE CASE
A. Background of Prior and Instant Cases involving
Susan Pierson
On January 21, 2015 Ms. Pierson’s truck was seized
and held by Swinomish tribal police officer Kleinman
and other Swinomish Tribal Police Officers, M. Radley
and Larry Yonally. Those police officers stopped Ms.
Pierson at a stop sign at the intersection of Swinomish
Avenue and 1st Street on the Swinomish Reservation in
Skagit County. Two days after the seizure, Pierson asked
Swinomish Tribal Police Officer Andrew Thorne to return

10
her truck. He refused, saying the truck was being held
to be searched.
It took the Swinomish Police Department over a week
to seek a search warrant. The warrant was applied for and
issued by a Washington state court. Yet Thorne and other
Swinomish police officers referred to in the complaint
seized the truck for forfeiture under the tribal drug code.
Pierson did not get her truck back. She sued Thorne
for damages for conversion. She argued that she was
entitled to recover for actual damages, loss of truck and
use of truck and damages for violation of her civil rights
by the police officers and reasonable attorneys’ fees and
costs pursuant to 42 USC 1983 and 1988.
Thorne, whose attorney was provided by Hudson
under an insurance policy issued to the Tribe, removed the
case to federal court. Thorne moved to dismiss the case.
The court granted the motion to dismiss, essentially on the
ground that Thorne was immunized by Indian sovereignty
as will be more fully discussed below. Pearson v. Thorne,
C15-0731-JCC, 2016 WL 3386798, W. D. Wash. (2016). No
appeal was taken from this decision.
On February 27, 2019, Pierson filed the present
suit against Hudson Insurance alleging that Hudson’s
insurance policy with the Swinomish tribe was purchased
by the federal government pursuant to 25 USC 5321 © (3)
(A) and was required to have a waiver of the right to assert
the defense of Indian sovereignty written into the policy.
Pierson alleged that she was the third party beneficiary
under the policy and because the policy was paid for with
federal funds, the Hudson policy was required by federal

11
law, 25 USC 5321 © (3)(A)… Any policy of insurance
obtained or provided by the Secretary pursuant to this
subsection shall contain a provision that the insurance
carrier shall waive any right it may have to raise as a
defense the sovereign immunity of an Indian tribe from
suit up to the limits of the policy. Pierson argued that she
and all other persons whose claims against employees of
the Swinomish Tribe were covered under the Hudson
insurance policy with the Swinomish Tribe were entitled
to pursue their claims without interference by assertion
of the defense of Indian sovereignty. Again, Pierson
acknowledges that a tribe can always assert sovereignty.
Pierson’s argument is that a defense attorney appointed
by Hudson under a federal funded contract of insurance
may not assert the defense.
B. 	 Proceedings Below in the Present Case
Hudson Insurance filed its motion to dismiss under
Rule 12.b (6). Hudson wrote in its motion to dismiss,
“Although Plaintiff premises her claims on the notion
that her rights in Pierson I were violated because the
Swinomish Tribe relied on the defense of sovereign
immunity, plaintiff’s claims in Pierson I were dismissed
pursuant to summary judgment on grounds other than
the defense of sovereign immunity.”Dkt 31, page 3 lines
4-5. Shortly thereafter at page 3, lines 11 to 16, Hudson
wrote,“With this lawsuit Plaintiff aims to do nothing more
than relitigate Pierson 1 using the defendant Insurance
Companies as surrogates for the Swinomish Tribe and
its police officer. The courts have already decided those
issues, holding not only that sovereign immunity applied
but that Plaintiff also had neglected to exhaust her tribal
remedies.” See also the 7th affirmative defense in the
answer filed by Hudson.

12
The 8th affirmative defense states: “these defendants
were not parties in Pierson 1 and therefore could have
not violated any of plaintiff’s civil or due process rights
during the course of that litigation.”
C. Basis for Decision in the Prior Lawsuit
Pearson v. Thorne was a lawsuit for damages against
Thorne in his individual capacity. It was dismissed for
three reasons stated in the district court opinion. First,
the court found that Thorne was acting in his official
capacity as a tribal officer and was thus immune because
of Indian sovereignty. This finding is final. Thus, Pierson
is now barred from suing Hudson for damages caused by
tribal officer Thorne.
The second finding was that Thorne was acting as
a tribal officer and was therefore immune from a claim
under 42 USC 1983. The third finding was that Pierson
had waived any claim that the seizure of the car and its
confiscation were illegal because she failed to exhaust her
remedies in tribal court. These findings are dictated by
the first finding that Thorne is entitled to the defense of
Indian sovereignty. These findings are also final, but like
the first finding, they only mean that Pierson is precluded
from suing Hudson for damages caused by officer Thorne.
The theory of damages in the present case in Pierson v.
Hudson Insurance Company is different. Pierson is suing
Hudson for damages caused by its own actions. Under
the federal statute, 25 USC 5321 (c) (3) (A), Pierson has a
right as a third party beneficiary to pursue tort litigation
against persons covered under the insurance policy issued
by Hudson, free from and uninhibited by the assertion of
the defense of Indian tribal sovereignty—a defense that

13
is virtually unassailable. Hudson interfered with this
right by failing to include in the insurance contract the
federally required waiver of the sovereignty defense up
to the limit of the policy issued to the Swinomish Tribe.
The damages are not the loss of the truck and its use. The
damages are the cost of litigation against Thorne that, but
for Hudson’s omission, would have proceeded in state court
like an ordinary tort lawsuit, uncomplicated by Thorne’s
status as a tribal officer.
Defendant Hudson is not entitled to the defense
of Indian sovereignty for its own actions. The District
Court should have stayed its hand and required Hudson
to answer Pierson’s interrogatories.
If this court grants this petition and reverses the
dismissal and allows this case to go forward against
Hudson, two results are possible. First, the court might
(incorrectly in Pierson’s view) rule on the merits that
Hudson is not obligated by 25 USC 5321 © (3) (A) to include
a written waiver forsaking the right to assert the defense
of Indian sovereignty to defeat a claim covered under
the policy, see cases cited in letter of William Spencer,
Appellant’s Excerpts of Record 118, 119.1 Hudson’s remedy
would be to seek terms.
1. 25 USC 5321 © (3) (A) requires a waiver written into an
insurance policy purchased by the Secretary of the Interior for the
benefit of an Indian tribe receiving a Self Determination Grant.
For Hudson to prevail under its case law argument that Hudson
is not prohibited by 25 USC 5321 © (3) (A) from asserting the
defense of Indian sovereignty to defeat a claim covered under its
policy, it logically follows that Hudson would have to show the court
which insurance policy the 25 USC 5321 © (3) (A) written waiver
applies to, if not the instant Hudson insurance policy covering the
liability of the Swinomish Tribe.

14
But, more likely, the court would decide that Hudson
did break the law by failing to include a written waiver in
its policy. If the policy issued by Hudson had included a
written waiver, Thorne would not have been able to assert
that his status as a tribal officer made him immune from
suit. The lawyer Hudson hired to defend Thorne in the
prior lawsuit would have realized that 25 USC 5321 (c) (3)
(A) prevented the assertion of all the defenses that allowed
Thorne ultimately to prevail.
SUMMARY OF ARGUMENT
Certiorari should be granted because the Ninth
Circuit’s decision erroneously interprets Washington
State issue preclusion law to deny petitioner the right
to sue Hudson Insurance Company as a third party
beneficiary of its contract of insurance with the Swinomish
Tribe purchased by federal funds pursuant to 25 USC
5321 (c) (3) A). This claim by Pierson was not raised or
addressed by the District Court in prior litigation. In
addition, this case raises a significant question as to
whether federal law, specifically 25 USC 5321 (c) (3) A),
has been violated by Hudson Insurance Company to
its financial benefit in the administration of tort claims
covered under its policies and whether the application
of collateral estoppel to deny petitioner the opportunity
to litigate her claim would work an injustice. Dismissal
under 12.6 (b) entitles petitioner to the assumption that her
factual claim is true, that Hudson Insurance, the biggest
insurance carrier insuring native American Indian tribes,
is systemically ignoring its obligations under 25 USC 5321
(c) (3) A). The 9th circuit’s affirmance of the dismissal of
petitioner’s contract claim against Hudson under 25 USC
5321 (c) (3) works an injustice upon petitioner and those

15
other persons who were entitled to protection by vigorous
enforcement of 25 USC 5321 (c) (3) (A). The 9th circuit’s
opinion vindicates Hudson’s use of the legal system to
keep concealed its complete disregard of 25 USC 5321 (c)
(3) A which was passed specifically to protect petitioner
and other persons in her situation.
ARGUMENT
The 9th circuit opinion affirming the District Court
is six (6) pages. Two issues under the generic label of
Issue Preclusion are addressed: (a) Identity of Issues (at
bottom of page 2 and page 3) and (b) Whether Application
of Issue Preclusion Would Cause Injustice (page 5 and
top of page 6).
As to issue (a) the 9th circuit cites on page 4, Scholz
v. Wash. State Patrol 416 P.3d 1261,1267 (Wash. Ct. App.
2018) quoting Shoemaker v. City of Bremerton 745 P.2d
858, 860 (Wash. 1987) (enbanc) for the premise the issue
decided in the earlier proceeding must have been “actually
litigated and necessarily determined” in that proceeding.
The facts of both cases involve policemen. Scholz was
fired for lying in an investigation. Shoemaker was
demoted. Each officer asserted his right to challenge the
termination or demotion under the collective bargaining
agreement. Both lost, after which they sued. The suits
were dismissed upon collateral estoppel but the facts
were absolutely identical. In Scholz and Shoemaker, the
common nucleus of facts involved in the litigation were
the same, i.e. was the termination or demotion based upon
just cause. It truly was a “rehash” of the prior litigation.

16
The Scholz and Bremerton cases are unlike the instant
case because the legal theory of liabilty is different, breach
of contract against Hudson for its actions in not including
a written waiver in its insurance policy as required by
25 USC 5321 (c) (3) (A) versus a tort suit against Tribal
Officer Thorne based upon his actions in seizing and
forfeiting petitioner’s truck. The instant case focuses on
the conduct of a different party, Hudson, in breaching
federal law by not putting a written waiver of the right
to assert the defense of sovereign immunity to defeat a
claim covered under the policy. The common nucleus of
fact required for claim preclusion under Lucky Brand
Dungarees v. Marcel Fashions (140 S. Ct. 1589 (May 14,
2020) is not satisfied.
The 9th circuit opinion is also deficient because it does
not address privity which is one of the four requirements
which must be satisfied under Scholz v. Wash. State Patrol
and Shoemaker v. City of Bremerton. The requirement
of privity was squarely presented in Appellant’s Opening
Brief and there is no privity under Washington law.
Next, the 9 th circuit focussed on the fact that the
District Court ruled Pierson’s claim against Swinomish
Tribal police officers involved in the seizure and forfeiture
of her truck was barred by Indian sovereign immunity.
The crux of the 9th circuit’s opinion is found in the following
language:
In the instant proceeding the district court
concluded that although Appellant had asserted
that Appellee insurance companies violated
25 USC 5321 (c) (3) (A) by failing to include a
waiver of the tribal sovereign immunity defense

17
in policies it issued to tribes and therefore
deprived her of her due process right to litigate
tort claims, she was really trying to rehash the
issue of tribal sovereign immunity.
Appellant argues her claims in this case are
different and that the prior proceeding did
not address her claim under 25 USC 5321. But
Appellant’s claims in both the prior proceeding
and the instant proceeding turn on the identical
issue of whether the tribal officers were
entitled to immunity. This issue has already
been decided against Appellant. Thus, as the
district court correctly recognized, the issues
are identical. See 9th circuit opinion in Pierson
v. Hudson, 2020 WL 7398999 at page 1, bottom.
The 9th circuit also found no injustice would flow from
the application of Issue Preclusion because “at its core,
Appellant’s argument is grounded in her belief that the
prior proceeding was wrongly decided and that tribal
immunity was improperly applied to dismiss her claim.”
Because in petitioner’s view, the 9th circuit did
not address all of her claims and arguments, most of
petitioner’s argument herein is taken from petitioner’s
Opening Brief to the the 9th circuit.
1. The District Judge erred in concluding the issues in
Pearson v. Thorne were identical and the Appellate
Court erred in affirming that result.
The District Court opinion concludes that the “issue”
raised in both lawsuits is the same. See opinion heading

18
re “Identical Issues”, Appellant’s Excerpts of Record at 4,
lines 23-26, and 5, lines 1-13. These sixteen lines contain
the reasoning of the opinion and hence will be quoted in
full.
The purpose of collateral estoppel is not “to
deny a litigant his day in court, but to prevent
retrial of one or more of the crucial issues or
determinative facts determined in previous
litigation.”[Citation omitted.] If a new argument
is raised in the second action regarding
something already raised and litigated in the
first action, “the prior determination of the
issue is conclusive “ even if the new “argument
relevant to the issue was not in fact expressly
pleaded”. 18 Moore Federal Practice &132.02(2)
(c); see also Paulo v. Holder, 669 F.3d 911,
917- 918(“The fact that a particular argument
against [a particular issue] was not made …and
not addressed…does not mean that the issue…
was not decided.)
In Pearson v. Thorne, Plaintiff argued that
Thorne could not assert sovereign immunity
under RCW 10.92, which requires insurance
companies to waive tribal sovereignty for their
insureds. Pearson, Case No. C15-0731-JCC Dkt
No.32 at 2-3. Now, Plaintiff asserts that Thorne
should not have been protected by sovereign
immunity because of 25 USC 5321 – a statute
bearing a strong resemblance to RCW 10.92.
(DKT. No. 1 at 9.) Specifically, Sec. 5321 (c) (3) (A)
provides that an insurance company insuring a
tribe must include a provision within the policy

19
that“waive[s] any right it may have to raise as
a defense the sovereign immunity of an Indian
tribe from suit” to the extent of the coverage.
Although Plaintiff raises a new argument in
support of her assertion, she is litigating the
same issue-namely whether Thorne should have
been protected by sovereign immunity in the
original lawsuit.”
The reference above to Pearson case No. C15-0731JCC Dkt No. 32 at 2-3 is to the Reply Memorandum of the
plaintiff to the Motion for Summary Judgment made by
Sergeant Thorne. Thorne was both a Washington State
Law Enforcement Officer and a Swinomish Tribal Officer.
Plaintiff sued him alleging that for purposes of 42 U.S.C.
1983, he acted as a state officer when he applied for a
search warrant from the state court to search Plaintiff,
who is not a native American. (In this counsel’s experience
of 47 years practice, I have never seen a tribal officer
appear in state court and get a search warrant against
a non Native American). Thorne and other tribal officers
searched Plaintiff’s truck pursuant to the state warrant,
discovered illegal drugs and used this uncovering of
evidence to achieve the forfeiture of the truck in tribal
court.
Thorne had argued that he was acting as a tribal
officer. The purpose of the reply memorandum was to
point out that if the District Court found that Thorne
acted as a state law enforcement officer, he was subject to
RCW 10.92.020. Under this state statute, officers of the
Swinomish Tribe must have insurance which prohibits
the use of Indian sovereignty as a defense to defeat a
tort claim against the officer when he has acted as a state

20
officer. This argument in the reply memorandum was
never addressed or decided because the District Court in
the prior lawsuit held that Thorne always and only acted
as a tribal police officer.
Thus, the District Court opinion in the present
lawsuit is incorrect when it states that the issue plaintiff
is litigating is identical to the issue litigated in the prior
lawsuit. As noted above, plaintiff agrees the judgment in
the prior case establishes that Thorne was protected by
sovereign immunity from a lawsuit seeking damages for
his confiscation of the truck. The judgment does not in
any way resolve the issue whether Hudson violates the law
when it fails to include in its policies the written waiver of
a sovereignty defense required by a federal statute. That
issue was not decided in the prior lawsuit.
Moreover, Washington law requires that the party
estopped have had a fair and full opportunity to litigate
the issue. Because the issue was raised in a reply brief,
and had a limited application to Thorne’s liability for his
actions as a state police officer and the application of RCW
10.92.020, the use of issue preclusion to prohibit Pierson’s
later suit against Hudson for violation of application of
25 USC 5321 is untenable. The application of 25 USC
5321 was not raised or argued in the prior lawsuit.
The opinion of the district court purports to apply the
law of collateral estoppel, also termed issue preclusion.
The opinion, citing federal cases even though the court in
diversity jurisdiction should be applying state law, recites
that collateral estoppel precludes a party from relitigating
an issue actually decided in a prior case and necessary
to the judgment. That analysis is not applicable here.

21
Petitioner is not attempting to relitigate whether Thorne
as an individual is susceptible to suit for tort damages.
The issue in the present case was not actually litigated or
decided in the prior lawsuit.
The appellate court affirmed the District Court’s
conclusion that the issues were identical in the prior
litigation Pearson v. Thorne, supra. This aspect of issue
preclusion- identity of issues- was addressed in the 9th
circuit opinion in about two pages of analysis.
Petitioner raised the specific argument that as it
relates to the prior lawsuit, Pearson v. Thorne, Hudson
could not avail itself of the defense of issue preclusion
under Washington law because Hudson was not in privity
with Thorne, see Appellant Opening Brief before 9 th
circuit, Issue 2, “As it relates to the litigation in the prior
lawsuit, is Hudson in privity with Thorne to be able to
avail itself of the affirmative defense of issue preclusion?
No.”, see pages 2, 17, 18 of appellant’s opening brief before
the 9th circuit.
The 9th circuit did not address petitioner’s argument
that Hudson was not in privity with Thorne and therefore
could not assert issue preclusion to bar petitioner’s claim.
Also, petitioner’s breach of contract claim against Hudson
was not a claim identical to Pierson’s tort claim against
Thorne under Washington law, Thompson v. King County
163 Wa. App. 184 (2011).

22
2. The issue and/or claim upon which the estoppel is
based does not meet the definition of issue claim
set forth in Lucky Brand Dungarees v. Marcel
Fashions (140 S. Ct. 1589 (May 14, 2020).
The specifics of this argument under Lucky Brand
Dungarees v. Marcel Fashions was not addressed by the
9th circuit in its opinion.
The District Court eliminated the right of the plaintiff
to pursue her claim against Hudson because she did not
present her claim against Hudson and join Hudson at the
same time and in the same tort case against Thorne. In
effect, the court created a mandatory joinder rule under
the rubric of collateral estoppel.
Hudson may argue that the dismissal is justified by res
judicata, sometimes called claim preclusion. Unlike issue
preclusion, claim preclusion prevents parties from raising
issues that could have been raised and decided in a prior
action—even if they were not actually litigated. If a later
suit advances the same claim as an earlier suit between
the same parties, the earlier suit’s judgment “prevents
litigation of all grounds for, or defenses to, recovery that
were previously available to the parties, regardless of
whether they were asserted or determined in the prior
proceeding.” Brown v. Felsen, 442 U.S. 127, 131, 99 S.Ct.
2205, 60 L.Ed.2d 767 (1979); see also Wright & Miller §
4407. Suits involve the same claim (or “cause of action”)
when they “ ‘aris[e] from the same transaction,’ ” United
States v. Tohono O’odham Nation, 563 U.S. 307, 316, 131
S.Ct. 1723, 179 L.Ed.2d 723 (2011) (quoting Kremer v.
Chemical Constr. Corp., 456 U.S. 461, 482, n. 22, 102 S.Ct.
1883, 72 L.Ed.2d 262 (1982)), or involve a “common nucleus

23
of operative facts,” Restatement (Second) of Judgments
§ 24, Comment b, p. 199 (1982) (Restatement (Second)).
Because this case is before the court on diversity
jurisdiction, the federal court applies state law. The
general doctrine was first reported in Sayward v. Thayer,
9 Wash. 22, 24, 36 P. 966 (1894) as follows:
[T]he plea of res judicata applies, except in
special cases, not only to points upon which
the court was actually required by the parties
to form an opinion and pronounce judgment,
but to every point which properly belonged to
the subject of litigation, and which the parties,
exercising reasonable diligence, might have
brought forward at the time.
Recent federal guidance is found in Lucky Brand
Dungarees v. Marcel Fashions Group Inc., 140 S. Ct. 1589
(May 14, 2020). Lucky Brand shows how to ascertain what
constitutes a claim or a defense that is precluded in a
second lawsuit because it should have been asserted in
the prior lawsuit.
Lucky Brand vindicates Pierson’s argument that her
third party beneficiary cause of action against Hudson
based upon 25 USC 5321 (c) (3) (A) is not a claim that had
to be litigated in Pearson v. Thorne. Pierson’s third party
beneficiary cause of action, derived from 25 USC 5321
(c) (3) (A), meets the three pronged test set out in Lucky
Brand to determine whether a claim or defense must be
asserted.

24
The first criterion of Lucky Brand is that the causes of
action that were resolved in the prior litigation must share
a common nucleus of facts with the facts presented in the
new litigation to support an estoppel. The United States
Supreme Court did not find that to be the circumstance
in Lucky Brand, stating:
Put simply, the two suits here were grounded
on different conduct, involving different marks,
occurring at different times. They thus did not
share a “common nucleus of operative facts.”
Restatement (Second) § 24, Comment b, at 199,
140 S. Ct. at 1595.
The second criterion used to measure where claim
preclusion applies is to ask whether “ ‘a different judgment
in the second action would impair or destroy rights or
interests established by the judgment entered in the first
action.’ ” Wright & Miller § 4407.” Stated differently, if a
different outcome in the second action “would nullify the
initial judgment or would impair rights established in
the initial action,” preclusion principles would be at play.
Restatement (Second) § 22(b), at 185; Wright & Miller §
4414.
The third criterion was explained as follows:
Claim preclusion generally “does not bar claims
that are predicated on events that postdate
the filing of the initial complaint.” Whole
Woman’s Health v. Hellerstedt, 579 U.S.
– – – –, – – – –, 136 S .Ct . 2 2 9 2 , 2 3 0 5 , 19 5
L.Ed.2d 665 (2016) (internal quotation marks
omitted); Lawlor v. National Screen Service
Corp., 349 U.S. 322, 327–328, 75 S.Ct. 865,

25
99 L. Ed. 1122 (1955) (holding that two suits
were not “based on the same cause of action,”
because “[t]he conduct presently complained of
was all subsequent to” the prior judgment and
it “cannot be given the effect of extinguishing
claims which did not even then exist and which
could not possibly have been sued upon in the
previous case”). This is for good reason: Events
that occur after the plaintiff files suit often give
rise to new “[m]aterial operative facts” that “in
themselves, or taken in conjunction with the
antecedent facts,” create a new claim to relief.
Restatement (Second) § 24, Comment f, at 203;
18 J. Moore, D. Coquillette, G. Joseph, G. Vairo,
& C. Varner, Federal Practice § 131.22[1], p.
131–55, n. 1 (3d ed. 2019) (citing cases where
“[n]ew facts create[d a] new claim”).
Lucky Brand, 140 S. Ct. at 1595-96.
Pierson’s suit as a third party beneficiary of 25 USC
5321 © (3) (A) against Hudson meets all of the tests of
Lucky Brand. Pierson v. Hudson and Pearson v. Thorne,
the two suits here, are grounded on different conduct, by
different defendants. They thus did not share a “common
nucleus of operative facts.”
Pierson also meets the standard that a different
judgment in the second action will not impair or destroy
rights or interests established by the judgment entered
in the first action. The damages Pierson seeks to recover
from Hudson are different and have nothing to do with the
nucleus of facts at issue in Pearson v. Thorne-- Pierson’s
loss of her truck and attendant damages. The Swinomish
tribe’s right to keep the truck and Hudson’s right to be free

26
of any monetary damages that could have been assessed
against Thorne will not be impaired if Pierson prevails
in the present action.
Pierson also meets the third criterion of Lucky
Brand because her suit against Hudson is predicated on
events that postdate the filing of the initial complaint in
Pierson v. Thorne. Pearson’s suit against Thorne was
based upon his action in seizing and forfeiting her truck
and the resulting damages, loss of use of truck and
deprivation of value of truck. Pierson’s suit against Hudson
is based on her contention that her right as a third party
beneficiary of 25 USC 5321 (c) (3) (A) was breached when
Hudson did not insert into the Swinomish policy a waiver
of the right to assert the defense of Indian sovereignty
in the defense of a tort claim against a person covered
under the Hudson policy. This omission by Hudson enabled
Thorne’s attorneys, hired by Hudson, long after January
21, 2015 when Pierson’s truck was seized by Swinomish
tribal police, to plead the defense of Indian sovereignty
and thereby obtain dismissal of the suit against Thorne.
The pleading of that defense, which occurred after the
filing of the complaint, is the proximate cause of the
plaintiff’s injuries. These are the actions that Hudson
is responsible for. They are events separate and apart
from Thorne’s action in seizing and participating in the
forfeiture of Pierson’s truck. Hudson’s violation of 25
USC 5321 (c) (3) (A) was a breach of an obligation owed
to Pierson as a third party beneficiary of that statute.
The breach denied her statutory right to litigate against
persons covered by Hudson’s policy without having to
contend with the defense of tribal sovereignty. Thus
the damages Pierson seeks to recover from Hudson are
different and have nothing to do with Pierson’s loss of her
truck. The damages Pierson seeks include her loss of time

27
and attorney fees expended in “fake” litigation, where
the court and plaintiff’s counsel had to struggle mightily
with the defense of Indian sovereignty when Congress’
intention was that the defense not be asserted. 2
3. The issue and/or claim and privity upon which the
estoppel is based does not meet the definition of
issue/ claim and privity as set forth in Thompson
v. King County 163 Wa. App. 184 (2011).
The appropriate analysis under Washington State
law is shown by Thompson v. King County, 163 Wa. App.
184 (2011). There, the court held that inmate Thompson’s
action against King County for damages resulting from
sexual assault was not barred by the prior dismissal on
the merits of Thompson’s lawsuit against two guards, even
though the county would have been vicariously liable if the
suit against the guards had been successful. The Court
of Appeals wrote:
The nature of Thompson’s claim brings him
within these exceptions. With respect to the first
exception, the present action alleges that the
county is responsible for the maintenance and
operation of the jail. This amounts to a colorable
claim that as a custodian, the county is liable
for breach of a duty that arises independently
of its vicarious liability for negligence by its
correctional officers. See, e.g., Shea v. City
of Spokane, 17 Wash.App. 236, 562 P.2d 264
(1977), aff’d, 90 Wash.2d 43, 578 P.2d 42 (1978).
With respect to the second exception, officers
2. It should be noted that the defense of Indian sovereignty
was a complete defense until April of 2017 when the Supreme Court
decided Lewis v. Clarke, 137 S. Ct.1285 (2017).

28
McMillen and Weirich were dismissed in the
first action on the basis of a defense personal
to themselves: that they had no knowledge
of Thompson being harassed or raped. Their
defense does not rule out the possibility that
other correctional officers did have knowledge
and did fail to protect Thompson, 163 Wa. App.
at 196.
Like the county in Thompson, Hudson has a duty that
arises independently of any obligation it might have had
to cover Thorne—the defendant in the first lawsuit—for
his alleged tort liability. The independent duty of Hudson
is to comply with the statutory mandate to include in
its policies a specific provision requiring waiver of a
sovereignty defense.
Pierson is entitled to relief for the additional reason
that Hudson is not in privity with Thorne except insofar
as Thorne might have been held liable under the policy.
In that circumstance, Hudson would have privity, just as
there was privity between the two officers in Thompson
and King County. But like King County, Hudson is solely
liable for its own actions—in this case, the breaching of
25 USC 5321 (c) (3) (A).

29
4.

The application of collateral estoppel cannot
satisfy the 4th component to the application of
collateral estoppel, that is, that the application
of the estoppel would not work an injustice,
because the court did not resolve the issue/or
claim and plaintiff was not afforded a full and
fair opportunity to be heard on the issues and
claims she raises against Hudson in Pearson
v. Thorne.

Finally, Hudson cannot satisfy the 4th component to
the application of collateral estoppel, that is, that the
application of the estoppel would not work an injustice.
The federal statute in play, 25 USC 5321 (c) (3) A),
is specially passed to allow tort claimants to pursue
litigation against persons covered under the policy without
the difficulties that arise when the defense of Indian
sovereignty is injected into the litigation. The doctrine
of collateral estoppel has to be stretched considerably to
justify its application in this case, and to do so nullifies the
intention of Congress to create a system that allows tort
victims to obtain compensation readily while at the same
time preserving the sovereignty of Indian tribes. If the
insurance policies issued to the tribes do not contain the
required waiver, tort victims will not be able to recover,
and Hudson will be able to keep the premiums it receives
without ever having to make a payout.
In connection with the fourth factor—estoppel must
not work an injustice—Washington cases emphasize that
the party against whom the doctrine is asserted must have
had a full and fair opportunity to litigate the issue in the
earlier proceeding. Christensen v. Grant County Hospital,
152 Wash2d 299, 306 (2004); Nielson v. Spanaway Gen.

30
Med. Clinic, Inc., 135 Wash. 2d 255, 264-65 (1998). If not,
the estoppel works an injustice. Nielson is the only case
counsel is aware of where collateral estoppel was applied
to dismiss a cause of action against a litigant who was not
a party in the original action. But it is distinguished from
the present case because the injured plaintiff did have
the opportunity in the first case to argue for and obtain
the full measure of damages caused by a series of acts of
medical malpractice. Such is not the case here where the
damages Pierson seeks from Hudson were not litigated
or determined in the earlier litigation against Thorne.
Pierson has not had a full and fair opportunity to be heard
on the issues and claims she raises against Hudson.
CONCLUSION
This case is the culmination of many cases in which
litigants have sought and been denied recovery for tort
claims against tribal police officers engaged in the practice
of seizing and forfeiting automobiles owned by nontribal
members. At long last, petitioner discovered 25 USC
5321 (c) (3) (A) and reasoned that Hudson breached its
obligation to write into its policies a waiver of any right it
might otherwise have to raise as a defense the sovereign
immunity of an Indian tribe from suit.
At its core, this case raises the issue of whether
25 USC 5321 (c) (3) (A) has been ignored by Hudson
Insurance, which has and continues to dominate the
tribal liability insurance market, since Congress passed
the law in 1990. This case presents the story of a series
of tort lawsuits against tribal officers brought by non
Native Americans whose automobiles were seized and
confiscated. The tribal officers sued were represented by

31
lawyers appointed by Hudson. The officers were covered
under the Hudson policy for liability. The Hudson policy
was purchased by the Secretary of the Interior pursuant
to 25 USC 5321 (c) (3) (A) for the benefit of the Swinomish
Tribe and the United States. All tort plaintiffs suing tribal
officers covered under the policy have been dismissed
when attorneys hired by Hudson to defend the claim have
obtained dismissal based upon the assertion of the defense
of Indian sovereignty.
Because the successful application of the doctrine of
collateral estoppel would vindicate the use by Hudson
to conceal its systematic violation of federal law, the
application would work an injustice under Washington law.
The 9th circuit opinion incorrectly interpreted and applied
Washington law. Because Hudson is violating federal
law, it should be barred the use of res judicata or issue
preclusion to conceal its systematic violation of federal
law which has nullified the effect of federal remedial
legislation mandated by 25 USC 5321 (c) (3) (A).
This case warrants review under this court’s Rule
10 (c) because both Washington State appellate courts
and this instant 9th circuit opinion have not decided and
resolved an important question of federal law that has
not been, but should be, settled by this Court, namely
the operation of a federal remedial statute 25 USC 5321
(c) (3) (A).
For this reason, this case meets the criteria for review.
Petitioner’s breach of contract claim against Hudson is
not identical to the claims decided in prior litigation. This
claim was not decided in prior litigation. Petitioner did not

32
have a full and fair opportunity to litigate this issue. In
addition, Hudson is not in privity with Thorne. Petitioner’s
claim is distinct and petitioner is entitled to prevail under
Thompson v. King County, 163 Wa. App. 184 (2011).
Dated this 21st day of April, 2021 at Bellingham,
Washington
Respectfully submitted,
William Johnston
Counsel of Record
401 Central Avenue
Bellingham, WA 98225
(360) 676-1931
wjtj47@gmail.com
Counsel for Petitioner

APPENDIX

1a
A
Appendix A —Appendix
memorandum
of the
united states court of appeals for the
ninth circuit, filed december 17, 2020
United States Court of Appeals
for the Ninth Circuit
No. 20-35185
SUSAN PIERSON, a single person,
Plaintiff-Appellant,
v.
HUDSON INSURANCE COMPANY, a New York
corporation; ODYSSEY REINSURANCE
COMPANY, a Connecticut corporation;
ODYSSEY RE HOLDINGS CORP., a Delaware
corporation; ALLIANT INSURANCE
SERVICES, INC., a California corporation;
and ALLIANT SPECIALTY INSURANCE
SERVICES, INC., a California corporation,
a subsidiary of Alliant Insurance
Services, Inc., DBA Tribal First;
Defendants-Appellees.
Appeal from the United States District Court
for the Western District of Washington
D.C. No. 2:19-cv-00289-JCC
John Coughenour, District Judge, Presiding

2a
Appendix A
MEMORANDUM*
December 7, 2020**, Submitted, Seattle, Washington
December 17, 2020, Filed
Before: MILLER and BRESS, Circuit Judges, and
BASTIAN,*** Chief District Judge.
Susan Pierson appeals the district court’s dismissal
of her case for failure to state a claim on issue preclusion
and statute of limitations grounds. We have jurisdiction
under 28 U.S.C. § 1291, and we affirm.
(1) 	Standard of Review
“We review the district court’s grant of a motion to
dismiss de novo.” Garity v. APWU Nat. Lab. Org., 828
F.3d 848, 854 (9th Cir. 2016) (quoting Knievel v. ESPN,
393 F.3d 1068, 1072 (9th Cir. 2005)). “When ruling on a
motion to dismiss, we accept all factual allegations in the
complaint as true and construe the pleadings in the light
most favorable to the nonmoving party.” Id. at 854 (quoting
Knievel, 393 F.3d at 1072). “A Rule 12(b)(6) dismissal may
be based on either a ‘lack of cognizable legal theory’ or
* This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.
** The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).
*** The Honorable Stanley Allen Bastian, United States Chief
District Judge for the Eastern District of Washington, sitting by
designation.

3a
Appendix A
‘the absence of sufficient facts alleged under a cognizable
legal theory.’” Johnson v. Riverside Healthcare Sys., LP,
534 F.3d 1116, 1121 (9th Cir. 2008) (quoting Balistreri v.
Pacifica Police Dep’t, 901 F.2d 696, 699 (9th Cir. 1990)).
(2) 	Issue Preclusion
Appellant argues that the district court improperly
dismissed certain of her claims on the basis of issue
preclusion. A federal court sitting in diversity jurisdiction
applies the preclusion law of the state in which it sits.
Semtek Int’l Inc. v. Lockheed Martin Corp., 531 U.S. 497,
508-09, 121 S. Ct. 1021, 149 L. Ed. 2d 32 (2001). Under
Washington law, a party asserting issue preclusion “must
show (1) the issue in the earlier proceeding is identical to
the issue in the later proceeding; (2) the earlier proceeding
ended with a final judgment on the merits; (3) the party
against whom [issue preclusion] is asserted was a party,
or in privity with a party, to the earlier proceeding; and
(4) applying [issue preclusion] would not be an injustice.”
Schibel v. Eymann, 189 Wn.2d 93, 399 P.3d 1129, 1132
(Wash. 2017).
The parties agree that the prior proceeding ended in
a final judgment on the merits and that Appellant was a
party to the prior proceeding. They dispute only whether
the issues in the two cases were identical and whether
application of the doctrine would cause injustice.

4a
Appendix A
(a) 	Identity of Issues
For issue preclusion to apply, the issue decided in the
earlier proceeding must have been “actually litigated
and necessarily determined” in that proceeding. Scholz
v. Wash. State Patrol, 3 Wn. App. 2d 584, 416 P.3d 1261,
1267 (Wash. Ct. App. 2018) (quoting Shoemaker v. City
of Bremerton, 109 Wn.2d 504, 745 P.2d 858, 860 (Wash.
1987) (en banc)). In the prior proceeding, the district
court concluded that tribal sovereign immunity barred
Appellant’s claims against Swinomish tribal police officers
arising out of the seizure and forfeiture of her truck. In
the instant proceeding, the district court concluded that,
although Appellant asserted that Appellee insurance
companies violated 25 U.S.C. § 5321(c)(3)(A) by failing to
include a waiver of the tribal sovereign immunity defense
in policies issued to tribes and therefore deprived her of
her due process right to litigate tort claims, she was really
trying to rehash the issue of tribal sovereign immunity.
Appellant argues that her claims in this case are
different and that the prior proceeding did not address
her claim under § 5321. But Appellant’s claims in both the
prior proceeding and the instant proceeding turn on the
identical issue of whether the tribal officers were entitled
to immunity. This issue has already been decided against
Appellant. Thus, as the district court correctly recognized,
the issues are identical.

5a
Appendix A
(b) Whether Application of Issue Preclusion
Would Cause Injustice
Appellant argues that applying issue preclusion would
cause an injustice because she would be denied her right
to pursue her tort litigation without interference from
the tribal sovereign immunity defense. She argues that
she did not have a full and fair opportunity to litigate her
claim under § 5321(c)(3)(A).
For this element, “Washington courts look to whether
the parties to the earlier proceeding received a full and
fair hearing on the issue in question.” Schibel, 399 P.3d at
1133-34 (quoting Thompson v. Wash. Dep’t of Licensing,
138 Wn.2d 783, 982 P.2d 601, 608 (Wash. 1999) (en banc)).
A party has a full and fair opportunity to litigate the
contested issue if the party had “sufficient motivation
for a full and vigorous litigation of the issue.” Weaver v.
City of Everett, 4 Wn. App. 2d 303, 421 P.3d 1013, 1019
(Wash. Ct. App. 2018) (quoting Hadley v. Maxwell, 144
Wn.2d 306, 27 P.3d 600, 604 (Wash. 2001)). Application of
issue preclusion here will not cause injustice. At its core,
Appellant’s argument is grounded in her belief that the
prior proceeding was wrongly decided and that tribal
sovereign immunity was improperly applied to dismiss
her claim. That argument should have been raised via a
direct appeal of that case. Appellant had a full and fair
opportunity to litigate her claim based on 25 U.S.C. §
5321(c)(3)(A) and to join the insurance companies in the
prior proceeding. She chose not to. This is not an injustice
sufficient to avoid application of issue preclusion.

6a
Appendix A
Accordingly, because all four elements of issue
preclusion are satisfied, Appellant’s claims are barred.
(3) 	Other Arguments
In their responding brief, Appellees raise a number of
other grounds on which the Court could affirm the district
court. Appellant did not challenge the district court’s
dismissal of her other claims on statute of limitations
grounds, and that argument is waived. Brown v. RawsonNeal Psychiatric Hosp., 840 F.3d 1146, 1148 (9th Cir. 2016).
We need not consider Appellees’ other asserted grounds
for affirmance.
AFFIRMED.

7a
APPENDIX B — Appendix
OPINIONBOF THE UNITED
STATES DISTRICT COURT FOR THE WESTERN
DISTRICT OF WASHINGTON AT SEATTLE,
FILED FEBRUARY 6, 2020
UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF
WASHINGTON AT SEATTLE
SUSAN PIERSON,
Plaintiff,
v.
HUDSON INSURANCE COMPANY,
A NEW YORK CORPORATION, et al.,
Defendants.
February 6, 2020, Decided;
February 6, 2020, Filed
HONORABLE JOHN C. COUGHENOUR, UNITED
STATES DISTRICT JUDGE.
CASE NO. C19-0289-JCC
ORDER
This matter comes before the Court on Defendants’
motion to dismiss (Dkt. No. 31). Having thoroughly
considered the parties’ briefing and the relevant record,
the Court finds oral argument unnecessary and hereby
GRANTS the motion for the reasons explained herein.

8a
Appendix B
I.

BACKGROUND

On January 21, 2015, Plaintiff was pulled over and
arrested by a Swinomish police officer while driving on
tribal land. (Dkt. No. 2 at 19–20.) Swinomish police officers
subsequently seized Plaintiff’s pickup truck because it had
been used to transport illegal narcotics onto tribal land.
(Id. at 20.) Officer Thorne, a Swinomish police officer, told
Plaintiff that she would be unable to retrieve her pickup
because the department was procuring a search warrant
for the vehicle and the tribe was initiating forfeiture
proceedings. (Id.) Plaintiff failed to challenge the tribe’s
forfeiture proceedings in tribal court and subsequently
brought suit against Officer Thorne in Skagit County
Superior Court, seeking an injunction and damages under
42 U.S.C. § 1983. See Pearson v. Thorne,1 Case No. C150731-JCC, Dkt. No. 2-1 (W.D. Wash. 2015). The case was
later removed to this Court. Id., Dkt. No. 1. Thorne filed a
motion for summary judgment in March 2016, which was
granted by this Court in June 2016. Id., Dkt. Nos. 24, 33.
This Court dismissed Plaintiff’s complaint against Thorne
because (1) Officer Thorne enjoyed sovereign immunity,
(2) Officer Thorne was not an appropriate defendant under
§ 1983 because he was not acting under the color of state
law, and (3) Plaintiff failed to exhaust her tribal remedies.
Id., Dkt. No. 33 at 6–8. Plaintiff attempted to challenge
Officer Thorne’s assertion of sovereign immunity in that
1. In her complaint, Plaintiff refers to her first case as Pierson
v. Thorne rather than Pearson v. Thorne. Plaintiff states her name
was spelled incorrectly in the first lawsuit. (Dkt. No. 1 at 5.) For
purposes of this order, the Court refers to the first case by its official
name—Pearson v. Thorne.

9a
Appendix B
suit, alleging that it was contrary to Washington Revised
Code Chapter 10.92, a Washington state law that requires
that insurance companies insuring tribes waive sovereign
immunity in relevant insurance policies. See id., Dkt.
No. 32 at 2–3. No insurance companies were named as
defendants in the prior lawsuit.
Plaintiff brought this suit in February 2019, alleging
that (1) Hudson’s insurance contract was implicitly
amended by 25 USC § 5321(c)(3)(A) to contain a waiver of
sovereign immunity, it breached that contract by asserting
sovereign immunity, and Plaintiff is the intended thirdparty beneficiary to that contract, and (2) Hudson is liable
to Plaintiff for its violation of 25 U.S.C. § 5321(c)(3)(A).
(Dkt. No. 1 at 10–12.) Plaintiff also asserts that her rights
were violated under 42 U.S.C. §§ 1981, 1982, 1983, 1984,
1985, and 1988. (Id. at 13–14.)
II. DISCUSSION
A.

Standard of Review

A defendant may move for dismissal when a plaintiff
“fails to state a claim upon which relief can be granted.”
Fed. R. Civ. P. 12(b)(6). To survive a motion to dismiss, a
complaint must contain sufficient factual matter, accepted
as true, to state a claim for relief that is plausible on its face.
Ashcroft v. Iqbal, 556 U.S. 662, 677–78, 129 S. Ct. 1937,
173 L. Ed. 2d 868 (2009). A claim has facial plausibility
when the plaintiff pleads factual content that allows the
court to draw the reasonable inference that the defendant
is liable for the misconduct alleged. Id. at 678. Although

10a
Appendix B
the Court must accept as true a complaint’s well-pleaded
facts, conclusory allegations of law and unwarranted
inferences will not defeat an otherwise proper Rule 12(b)
(6) motion. Vasquez v. L.A. Cnty., 487 F.3d 1246, 1249 (9th
Cir. 2007); Sprewell v. Golden State Warriors, 266 F.3d
979, 988 (9th Cir. 2001). The plaintiff is obligated to provide
grounds for her entitlement to relief that amount to more
than labels and conclusions or formulaic recitation of the
elements of a cause of action. Bell Atl. Corp. v. Twombly,
550 U.S. 544, 545, 127 S. Ct. 1955, 167 L. Ed. 2d 929 (2007).
“[T]he pleading standard Rule 8 announces does not
require ‘detailed factual allegations,’ but it demands more
than an unadorned, the-defendant-unlawfully-harmedme accusation.” Iqbal, 556 U.S. at 678. A dismissal under
Federal Rule of Civil Procedure 12(b)(6) “can [also] be
based on the lack of a cognizable legal theory.” Balistreri
v. Pacifica Police Dep’t, 901 F.2d 696, 699 (9th Cir. 1988).
B. Collateral Estoppel
When a federal court sits in diversity jurisdiction,
the court must apply the state’s law of collateral estoppel.
See Semtek Int’l Inc. v. Lockheed Martin Corp., 531 U.S.
497, 508, 121 S. Ct. 1021, 149 L. Ed. 2d 32 (2001). Under
Washington law, collateral estoppel applies where: “(1) the
issue in the earlier proceeding is identical to the issue in
the later proceeding, (2) the earlier proceeding ended with
a final judgment on the merits, (3) the party against whom
collateral estoppel is asserted was a party, or in privity
with a party, to the earlier proceeding, and (4) applying
collateral estoppel would not be an injustice.” Schibel v.
Eymann, 189 Wn.2d 93, 399 P.3d 1129, 1132 (Wash. 2017).

11a
Appendix B
1.

Identical Issues

The purpose of collateral estoppel is not “to deny
a litigant his day in court,” but to “prevent retrial of
one or more of the crucial issues or determinative facts
determined in previous litigation.” Luisi Truck Lines, Inc.
v. Wash. Utils. and Transp. Comm’n, 72 Wn.2d 887, 435
P.2d 654, 659 (Wash. 1967). If a new argument is raised in
the second action regarding something already litigated
in the first action, “the prior determination of the issue
is conclusive” even if the “argument relevant to the issue
was not in fact expressly pleaded.” 18 Moore’s Federal
Practice § 132.02(2)(c); see also Paulo v. Holder, 669 F.3d
911, 917–18 (“The fact that a particular argument against
[a particular issue] was not made . . . and not addressed . . .
does not mean that the issue . . . was not decided.”).
In Pearson v. Thorne, Plaintiff argued that Thorne
could not assert sovereign immunity under RCW 10.92,
which requires insurance companies to waive tribal
sovereign immunity for their insureds. Pearson, Case No.
C15-0731-JCC, Dkt. No. 32 at 2-3. Now, Plaintiff asserts
that Thorne should not have been protected by sovereign
immunity because of 25 U.S.C. § 5321—a statute bearing
a strong resemblance to RCW 10.92. (Dkt. No. 1 at 9.)
Specifically, § 5321(c)(3)(A), provides that an insurance
company insuring a tribe must include a provision within
the policy that “waive[s] any right it may have to raise as
a defense the sovereign immunity of an Indian tribe from
suit” to the extent of the coverage. Although Plaintiff
raises a new argument in support of her assertion, she
is litigating the same issue—namely, whether Thorne

12a
Appendix B
should have been protected by sovereign immunity in the
original lawsuit.
2.

Final Judgment on the Merits

“[A] grant of summary judgment constitutes a final
judgment on the merits and has the same preclusive effect
as a full trial of the issue.” Nat’l Union Fire Ins. Co. of
Pittsburgh v. Nw. Youth Servs., 97 Wn. App. 226, 983 P.2d
1144, 1148 (Wash. Ct. App. 1999). The previous lawsuit,
Pearson v. Thorne, was decided on summary judgment
on the merits.
3.

Same Party

Both parties to the lawsuit do not have to be the same
for collateral estoppel to apply—rather, only the party
against whom collateral estoppel is asserted must be
the same. See Schibel, 399 P.3d at 1132. Pierson was the
Plaintiff in the prior lawsuit and is the party against whom
collateral estoppel is being asserted in this case. Compare
Pearson, Case No. C15-0731-JCC, Dkt. No. 1 with (Dkt.
No. 1.) Therefore, this element is satisfied.
4.

Injustice

If the application of estoppel would be unjust under the
circumstances, preclusion need not apply. This element of
collateral estoppel is generally concerned with procedural
unfairness. Christensen v. Grant Cty. Hosp. Dist. No.
1, 152 Wn.2d 299, 96 P.3d 957, 962 (Wash. 2004). In
determining whether collateral estoppel applies, “whether

13a
Appendix B
the decision in the earlier proceeding was substantively
correct is generally not a relevant consideration in
determining whether application of collateral estoppel
would work an injustice.” Id. at 966.
In this case, there is nothing to suggest that the
previous litigation was procedurally unfair. Plaintiff
argues that estoppel would work an injustice on her
because (1) Plaintiff had a right to pursue her tort claim
without the defense of sovereignty, (2) Hudson would
benefit from its violation of § 5321(c)(3)(A), and (3) applying
collateral estoppel would undermine the enforcement of
federal law. (Dkt. No. 32 at 11.) But these considerations
are improper in collateral estoppel analysis. This Court
cannot pass judgment on whether sovereign immunity
was properly asserted in the previous action. Rather, the
relevant consideration is whether Plaintiff received a “full
and fair” opportunity to be heard. Schibel, 399 P.3d at
1134. Plaintiff’s failure to raise § 5321(c)(3)(A) in the prior
lawsuit is not a sufficient reason to overcome collateral
estoppel because Plaintiff had a full and fair opportunity
to dispute sovereign immunity in the prior litigation.
Sovereign immunity is essential to Plaintiff’s § 5321
claim, therefore Plaintiff is collaterally estopped from
bringing her claims under § 5321 in this case. Likewise,
sovereign immunity is essential to Plaintiff’s § 1983 claim,
which was explicitly decided in Plaintiff’s previous lawsuit.
Therefore, Plaintiff’s claim under § 1983 is also barred by
collateral estoppel.

14a
Appendix B
C.

Statute of Limitations

“Because the federal civil rights statutes lack statutes
of limitations of their own, the U.S. Supreme Court has
directed the lower federal courts in such cases to apply
the general state law limitations period for personal injury
claims.” Cloud ex rel. Cloud v. Summers, 98 Wn. App. 724,
991 P.2d 1169, 1173 (Wash. Ct. App. 1999). Washington
has a personal injury statute of limitations of three years.
Wash Rev. Code § 4.16.080.
Defendants argue that the statute of limitations on
Plaintiff’s civil rights claims began to run on May 20,
2015, the day Officer Thorne filed his answer in Pearson
v. Thorne asserting sovereign immunity. (Dkt. No. 31 at
13–14.) Plaintiff does not dispute Defendants’ claim that
the statute of limitations has run on Plaintiff’s civil rights
claims. (Id. at 12.) Nor does Plaintiff state exactly how or
why she is entitled to relief from Defendant under these
provisions. Plaintiff’s claims under 42 U.S.C. §§ 1981,
1982, 1983, 1984, 1985, and 1988 are thus time-barred.
See Wash. Rev. Code § 4.16.080.
III.

CONCLUSION

For the foregoing reasons, Defendants’ motion to
dismiss (Dkt. No. 31) is GRANTED and the case is
DISMISSED with prejudice. The Court hereby STRIKES
Plaintiff’s motion to compel (Dkt. No. 34) and Defendants’
motion to stay (Dkt. No. 38) and DIRECTS the Clerk to
close the case.

15a
Appendix B
DATED this 6th day of February 2020.
/s/ John C. Coughenour
John C. Coughenour
UNITED STATES
DISTRICT JUDGE

16a
Appendix COF THE UNITED
APPENDIX C — OPINION
STATES DISTRICT COURT FOR THE WESTERN
DISTRICT OF WASHINGTON AT SEATTLE,
FILED JUNE 20, 2016
UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF
WASHINGTON AT SEATTLE
SUSAN PEARSON,
Plaintiff,
v.
DIRECTOR OF THE DEPARTMENT OF
LICENSING, A SUBDIVISION OF THE STATE
OF WASHINGTON, IN HIS/HER OFFICIAL
CAPACITY, et al.,
Defendants.
June 20, 2016, Decided;
June 20, 2016, Filed
HONORABLE John C. Coughenour,
UNITED STATES DISTRICT JUDGE.
CASE NO. C15-0731-JCC
ORDER GRANTING MOTIONS
FOR SUMMARY JUDGMENT
This matter comes before the Court on the motions
for summary judgment by Defendants Director of the

17a
Appendix C
Department of Licensing (Dkt. No. 21) and Sergeant
Andrew Thorne (Dkt. No. 24). Having thoroughly
considered the parties’ briefing and the relevant record,
the Court finds oral argument unnecessary and hereby
GRANTS the motions for the reasons explained herein.
I.

BACKGROUND

The relevant facts are not in dispute. On January
21, 2015, Swinomish Police Department Officer Hans
Kleinman pulled over Plaintiff Susan Pearson for failing
to obey a stop sign. (Dkt. No. 25-1 at 1.) Both the traffic
violation and the traffic stop occurred on tribal trust
land within the external boundaries of the Swinomish
Reservation. (Id.) Officer Kleinman ran Pearson’s name
through a driver’s check and learned that her license
was suspended three days earlier for unpaid tickets. (Id.)
Officer Kleinman arrested Pearson. (Id.) During the
search incident to arrest, Officer Kleinman found evidence
of controlled substances on Pearson’s person. (Id.) The
tribal police officers subsequently seized Pearson’s 1999
GMC S-10 pickup truck. (Dkt. No. 2-1 at 3; Dkt. No. 25-2
at 2.)
Two days after Pearson’s arrest, Defendant Andrew
Thorne, a sergeant with the Swinomish Police Department,
received a call from Pearson. (Dkt. No. 26-1 at 2.) Pearson
asked where she should pick up her vehicle. (Id.) Sgt.
Thorne responded that Pearson could not retrieve her
vehicle because the Swinomish Police Department was
procuring a search warrant. (Id.) Pearson then asked when
her vehicle would be returned. (Id.) Sgt. Thorne responded

18a
Appendix C
that the Tribe intended to initiate forfeiture proceedings
because the vehicle was used to transport illegal narcotics
on tribal land. (Id.) Sgt. Thorne advised that Pearson
would be receiving a seizure notice from the Swinomish
Tribal Court with a hearing date and that Pearson could
retain an attorney if she wished. (Id.)
Upon obtaining a warrant, the Swinomish Police
Department searched Pearson’s vehicle and discovered
evidence of controlled substances. (Dkt. No. 25-3 at 2.)
The Swinomish Tribe gave Pearson notice of the
proceeding to forfeit her vehicle pursuant to tribal law.
(Dkt. No. 25-4 at 2; Dkt. No. 25-5 at 2; Dkt. No. 25-6 at
2.) Pearson contacted the Swinomish Tribal Court and
indicated that she was aware of the matter. (Dkt. No.
25-8 at 2.) Ultimately, though, no attorney entered an
appearance on her behalf, and Pearson did not file an
answer. (See id. at 3.) After 20 days, the Swinomish Tribal
Court entered an order forfeiting Pearson’s ownership
pursuant to Swinomish tribal laws. (Id. at 2-3.)
Meanwhile, Pearson requested that the Washington
State Department of Licensing (Department) place a hold
on her certificate of title. (Dkt. No. 23 at 2.) Based on this
request, the Department flagged Pearson’s certificate
of title, indicating to the Department that ownership of
the vehicle could not be transferred without a request
by Pearson or a Washington State court order. (Id.) The
Department has no records indicating that the Swinomish
Tribe has attempted to transfer title to Pearson’s vehicle.
(Id.) As of the time of filing of these motions, Pearson’s

19a
Appendix C
truck was still in the custody of the Swinomish Police
Department. (Dkt. No. 25 at 3.)
On March 14, 2015, Pearson filed a complaint for
damages and declaratory and injunctive relief against the
Director of the Department in her official capacity and
against several Swinomish tribal police officers, including
Sgt. Thorne. (Dkt. No. 2-1.) Pearson asks this Court to
enjoin the Department from transferring the certificate
of ownership to itself pursuant to the Swinomish Tribe’s
forfeiture order, and to award judgment against the tribal
police officers for damages under 42 U.S.C. § 1983. (Dkt.
No. 2-1 at 6.)
II. DISCUSSION
A.

Summary Judgment Standard

The Court shall grant summary judgment if the
moving party shows that there is no genuine dispute as
to any material fact and that the moving party is entitled
to judgment as a matter of law. Fed. R. Civ. P. 56(a). In
making such a determination, the Court must view the
facts and justifiable inferences to be drawn therefrom in
the light most favorable to the nonmoving party. Anderson
v. Liberty Lobby, 477 U.S. 242, 255, 106 S. Ct. 2505, 91 L.
Ed. 2d 202 (1986). Once a motion for summary judgment
is properly made and supported, the opposing party must
present specific facts showing that there is a genuine issue
for trial. Fed. R. Civ. P. 56(e); Matsushita Elec. Indus. Co.
v. Zenith Radio Corp., 475 U.S. 574, 587, 106 S. Ct. 1348,
89 L. Ed. 2d 538 (1986). Material facts are those that

20a
Appendix C
may affect the outcome of the case, and a dispute about a
material fact is genuine if there is sufficient evidence for
a reasonable jury to return a verdict for the non-moving
party. Anderson, 477 U.S. at 248-49. Ultimately, summary
judgment is appropriate against a party who “fails to
make a showing sufficient to establish the existence of
an element essential to that party’s case, and on which
that party will bear the burden of proof at trial.” Celotex
Corp. v. Catrett, 477 U.S. 317, 324, 106 S. Ct. 2548, 91 L.
Ed. 2d 265 (1986).
B. Motion by Director of Department of Licensing
Pearson alleges that the Department has a practice
of transferring vehicle ownership to itself pursuant to
tribal forfeiture orders, which violates the law and the
Department’s own protocols. (Dkt. No. 2-1 at 4.) Pearson
asks the Court to enjoin the Director of the Department
from changing the certificate of title of Pearson’s truck,
because the Swinomish Tribe had no authority to seize
the vehicle. (Id.)
The Director moves for summary judgment, arguing
that (1) Pearson lacks standing, because she fails to show
past injury or a significant possibility of future harm and
(2) the Director is immune from civil suits arising from
actions in connection with vehicle registration.1 (Dkt. No.
21 at 5.) The Court agrees on both counts.
1. The Director also argues that, to the extent Pearson alleges
a § 1983 claim against her, the complaint does not sufficiently plead
a claim. (Dkt. No. 21 at 5.) Pearson’s response brief acknowledges
that she “only seeks a declaration or injunction against the Director,”
not damages under § 1983. (Dkt. No. 27 at 10.)

21a
Appendix C
1.

Standing

The Director first argues that Pearson lacks standing
to seek an injunction against transfer of her vehicle
title. (Id.) Article III requires all litigants to establish
a case and controversy in order to invoke this court’s
jurisdiction. Simon v. E. Ky. Welfare Rights Org., 426 U.S.
26, 37, 96 S. Ct. 1917, 48 L. Ed. 2d 450 (1976). Standing
has three requirements: (1) an injury in fact, meaning
“a harm suffered by the plaintiff that is concrete and
actual or imminent”; (2) causation, meaning “a fairly
traceable connection between the plaintiff’s injury and
the complained-of conduct of the defendant”; and (3)
redressability, meaning “a likelihood that the requested
relief will redress the alleged injury.” Steel Co. v. Citizens
for a Better Env’t, 523 U.S. 83, 102-03, 118 S. Ct. 1003, 140
L. Ed. 2d 210 (1998) (internal quotations omitted). Where
a plaintiff seeks only declaratory and injunctive relief, he
or she must also show a “very significant possibility of
future harm.” San Diego County Gun Rights Comm. v.
Reno, 98 F.3d 1121, 1126 (9th Cir. 1996).
Here, the future harm is the transfer of title from
Pearson to the Department. But, Pearson has not shown
a “very significant possibility” that this harm will occur.
The Tribe has not attempted to transfer the title. The
Department has flagged Pearson’s certificate of title,
meaning that the title cannot be transferred unless
Pearson authorizes it or a Washington State court orders
it. These limitations are encapsulated in the Department
policy requiring “that the tribal court order be ‘converted
to judgment’ in a Washington Superior Court that the

22a
Appendix C
tribal offer is enforceable.” (Dkt. No. 23 at 2.) Factually
speaking, it seems very unlikely that the Department will
unlawfully obtain title to Pearson’s truck.
Pearson protests that the Department has previously
argued that its policy would prevent transfer of title, yet it
still assumed title to the subject vehicles. (Dkt. No. 27 at
4.) She cites two cases as examples: Candee Washington
v. Director Skagit County, Skagit County Cause No. 152-00293-0 and Jordynn Scott v. Director of Department
of Licensing, Whatcom County Cause No. 15-2-00301-8.
(Dkt. No. 27 at 2.) These cases involve the transfer of a
certificate of title pursuant to a tribal court order that
was not converted to judgment in a Washington superior
court. But, as the Director explains, these cases triggered
the Department to more stringently enforce its policy and
the corresponding regulations. (Dkt. No. 23 at 3; Dkt. No.
21 at 4.) This further negates the likelihood that the same
harm will befall Pearson.
Pearson also asserts that there is another case
involving a non-Native American, Narin Sin, whose vehicle
was seized by the Tulalip Tribe and whose certificate of
title was transferred by the Department. (Dkt. No. 27 at
2.) Pearson provides no evidence of this occurrence, nor
any explanation of when the alleged seizure and transfer
occurred. In response, the Department submits an
affidavit showing that Narin Sin had a vehicle forfeited by
the Tulalip Tribe, but that there is no record of the vehicle’s
title being transferred pursuant to a tribal forfeiture. (Dkt.
No. 31 at 2.) This fact does not make it significantly likely
that Pearson’s title will be impermissibly transferred. In

23a
Appendix C
sum, Pearson fails to demonstrate a sufficient possibility
of future harm to establish standing.
2.

Immunity

The Director further argues that Pearson’s suit is
barred by immunity established under Washington State
law. (Dkt. No. 21 at 5.) Wash. Rev. Code 46.01.310 states:
No civil suit or action may ever be commenced
or prosecuted against the director [of the
Depa r tment of Licensing], the state of
Washington, any county auditor or other agents
appointed by the director, any other government
officer or entity, or against any other person, by
reason of any act done or omitted to be done
in connection with the titling or registration of
vehicles or vessels while administering duties
and responsibilities imposed on the director or
as an agent of the director, or as a subagent of
the director.
(Emphasis added.)
Pearson brought a civil suit against the Director
based on the Department’s alleged practice of improperly
transferring titles—i.e., acts “done . . . in connection with
the titling or registration of vehicles.” It is thus clear that
the Director is immune from the present suit.
Pearson’s claims against the Director are DISMISSED
with prejudice

24a
Appendix C
C.

Motion by Sergeant Andrew Thorne

Pearson alleges that Sgt. Thorne’s involvement in
seizing and forfeiting her vehicle violated her rights under
the federal and Washington State constitutions. (Dkt.
No. 2-1 at 5-6.) She further asserts that Sgt. Thorne was
acting under color of Washington State law and is thus
liable for damages under § 1983. (Dkt. No. 2-1 at 6.)
Sgt. Thorne argues that the Court should dismiss
Pearson’s claims with prejudice, because (1) Pearson’s
claims is actually an official capacity suit that is foreclosed
by sovereign immunity; (2) Sgt. Thorne was acting under
color of tribal law, not state law; and (3) Pearson failed to
exhaust her tribal remedies. (Dkt. No. 24 at 2-3.) Again,
the Court agrees on all counts.
1.

Sovereign Immunity

Sgt. Thorne first asserts that Pearson’s claim is barred
by sovereign immunity. (Id.) Tribal sovereign immunity
bars suits against a tribe itself, as well as suits against
the tribe’s employees in their official capacities. Miller
v. Wright, 705 F.3d 919, 927-28 (9th Cir. 20 13). Tribal
sovereign immunity generally does not protect tribal
employees who are sued in their individual capacities for
money damages, even if the employees were acting in the
course and scope of their employment. Maxwell v. County
of San Diego, 708 F.3d 1075, 1086-90 (9th Cir. 2013).
However, a “plaintiff cannot circumvent tribal immunity
by the simple expedient of naming an officer of the Tribe
as a defendant, rather than the sovereign entity.” Miller,
705 F.3d at 928 (internal quotations omitted). In such

25a
Appendix C
cases, “the sovereign entity is the real, substantial party
in interest and is entitled to invoke its sovereign immunity
from suit.” See Cook v. AVI Casino Enters., Inc., 548 F.3d
718, 727 (9th Cir. 2008).
Pearson’s suit rests solely on her argument that the
Swinomish Tribe lacked jurisdiction to seize and forfeit
her truck. Thus, although she sued the tribal officers in
their individual capacity, it is clear that the true defendant
is the Tribe itself. Because Pearson’s suit is “in reality an
official capacity suit,” it is barred by sovereign immunity.
See Maxwell, 708 F.3d at 1089.
2.

Acting Under Color of Tribal Law

Sgt. Thorne further argues that he was not acting
under color of state law. (Dkt. No. 24 at 2-3.) To establish
liability under § 1983, a plaintiff must demonstrate that
(1) the defendant acted under color of state law and (2) the
defendant deprived the plaintiff of a right secured by the
Constitution or laws of the United States. Learned v. City
of Bellevue, 860 F.2d 928, 933 (9th Cir. 1988). The plaintiff
bears the burden of showing that the defendant’s conduct
was performed under color of state law. See id. “[A]ctions
taken under color of tribal law are beyond the reach of
§ 1983.” R.J. Williams Co. v. Fort Belknap Hous. Auth.,
719 F.2d 979, 982 (9th Cir. 1983).
Pearson alleges that Sgt. Thorne “ act[ed] beyond any
authority [he] ha[s] as [a] Swinomish tribal police officer”
and was “acting under color of state law and as [a] General
Authority Washington State Police Officer.” (Dkt. No. 2-1
at 6.) However, she fails to support this assertion. First,

26a
Appendix C
her argument that the tribal police officers exceeded
their authority is based on the Tribe’s alleged lack of
jurisdiction, which again demonstrates that sovereign
immunity bars this suit. Moreover, the only evidence of
Sgt. Thorne’s involvement in this matter shows that he
merely answered a phone call from Pearson and relayed
information to her. Apart from the fact that this conduct
was related to the forfeiture—which, again, is challenged
on grounds barred by sovereign immunity—Pearson
has not shown that Sgt. Thorne’s actions exceeded his
authority as a tribal officer.
3.

Exhaustion of Tribal Remedies

Finally, Sgt. Thorne asserts that Pearson’s suit is
precluded by her failure to exhaust her tribal remedies.
(Dkt. No. 24 at 2-3.) A party may not challenge tribal
court jurisdiction in federal court until he or she has first
exhausted its remedies in tribal court. National Farmers
Union Ins. Cos. v. Crow Tribe of Indians, 471 U.S. 845, 85556, 105 S. Ct. 2447, 85 L. Ed. 2d 818 (1985); Allstate Indem.
Co. v. Stump, 191 F.3d 1071, 1073 (9th Cir. 1999). This
requirement is “mandatory,” not discretionary. Marceau
v. Blackfeet Hous. Auth., 540 F.3d 916, 920 (9th Cir. 2008)
(internal quotation omitted); see also Atwood v. Fort Peck
Tribal Court Assiniboine, 513 F.3d 943, 948 (9th Cir. 2008)
(“Under the doctrine of exhaustion of tribal court remedies,
relief may not be sought in federal court until appellate
review of a pending matter in a tribal court is complete.”).
As discussed above, Pearson’s suit is unquestionably a
challenge to tribal court jurisdiction. It is also undisputed
that Pearson was aware of the forfeiture proceeding, but

27a
Appendix C
never filed an answer or otherwise responded. She has
not appealed the forfeiture order. She thus has failed
to exhaust her tribal remedies and cannot bring this
challenge in federal court.
4.

Pearson’s Response

As a final note, the Court acknowledges Pearson’s
lackluster—and very late—response to Sgt. Thorne’s
motion. Pearson did not directly acknowledge Sgt.
Thorne’s arguments, instead reiterating her blanket
statement that Sgt. Thorne “is a Washington State police
officer” and confusingly citing a Washington insurance
statute. (Dkt. No. 32 at 2-3.) This was far from sufficient
to survive summary judgment.
Pearson’s claims against Sgt. Thorne are DISMISSED
with prejudice.
III.

CONCLUSION

For the foregoing reasons, Defendants’ motions for
summary judgment (Dkt. Nos. 21, 24) are GRANTED.
Pearson’s claims against the Director of the Department of
Licensing and Sergeant Andrew Thorne are DISMISSED
with prejudice.
DATED this 20th day of June 2016.
/s/ John C. Coughenour
John C. Coughenour
UNITED STATES
DISTRICT JUDGE

